TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Management Oversight Improved, but
                     Expected Benefits and Capabilities for
                     the Tax Exempt Determination System
                         Release 2 Were Not Delivered



                                       December 11, 2007

                              Reference Number: 2008-10-025




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               December 11, 2007


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Management Oversight Improved, but Expected
                               Benefits and Capabilities for the Tax Exempt Determination System
                               Release 2 Were Not Delivered (Audit # 200610047)

 This report presents the results of our review of the Tax Exempt Determination System (hereafter
 referred to as the TEDS or System)1 Release 2. The overall objectives of this review were to
 determine whether the Tax Exempt and Government Entities (TE/GE) Division developed
 TEDS Release 2 using sound system development practices and whether it managed the
 Release 2 investment in compliance with Office of Management and Budget and Clinger-Cohen
 Act of 19962 requirements. This audit was conducted as part of the Treasury Inspector General
 for Tax Administration Office of Audit Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 In September 2003, TE/GE Division management began developing TEDS Release 2, which was
 to include the upfront imaging of Employee Plans function and Exempt Organizations function
 determination applications, enhanced reporting, and automated case assignment. The System is
 currently scheduled for implementation in May 2008. However, when the System is completed,


 1
   In December 2001, the TE/GE Division Investment Executive Steering Committee approved a seven-stage release
 strategy for the TEDS to replace the Employee Plans/Exempt Organizations Determination System, automate certain
 manual processes, and reduce or eliminate employee labor expense. The System was needed to address several
 critical workload factors that threatened to overwhelm the Employee Plans function and Exempt Organizations
 function Determinations Programs.
 2
   Federal Acquisition Reform Act of 1996 and Information Technology Management Reform Act of 1996,
 Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
 16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
 44 U.S.C., 49 U.S.C., 50 U.S.C.).
                    Management Oversight Improved, but Expected Benefits and
                      Capabilities for the Tax Exempt Determination System
                                   Release 2 Were Not Delivered


its cost may far outweigh its benefits. The high cost of the TEDS compared to the benefits it will
deliver brings into question whether sound investment decisions were made during development
of the System and whether this was the best use of Federal Government funds.

Synopsis
Overall, the TE/GE Division Investment Executive Steering Committee improved its oversight
of the development of TEDS Release 2 from that provided during Release 1 by using certain
project management techniques. In addition, TE/GE Division management began tracking some
project costs as we had recommended.3 However, management did not fully implement our prior
recommendations to evaluate investment decisions and monitor whether business benefits would
be realized. We identified the following:
    •    Schedule delays and deletion of some system capabilities resulted in delivering only
         $33.5 million (less than one-half) of the $73.1 million in expected benefits included in
         the August 2004 Business Case.4
    •    Total project costs were not monitored and reported because TE/GE Division
         management did not have a process in place to appropriately evaluate investment
         decisions. The estimated contractor cost was exceeded by $2.1 million (26 percent), and
         estimated internal labor costs of $5.1 million were not tracked to the August 2004
         Business Case. As a result, we could not verify the reliability of $7.2 million in the
         Business Case.
    •    Very few benefits were received from the development of TEDS Release 1. Upon
         completion of Release 1, the technical infrastructure, including computer hardware and
         software designed to support all future System releases, was replaced because it did not
         meet new Internal Revenue Service (IRS) standards. As a result, an inefficient use of
         resources occurred when little benefit was realized from the $17 million spent on
         Release 1.
    •    Project management oversight may not ensure TEDS Release 2 will align with future
         IRS systems and processes. Oversight is necessary to ensure additional costs are not
         incurred in the future to bring the applications into alignment with other systems.




3
  The Tax Exempt Determination System Release 1 Delivered Only a Small Portion of the Expected Benefits and
Significantly Exceeded Cost Estimates (Reference Number 2006-10-174, dated September 26, 2006).
4
  See Appendix V for a glossary of terms.
                                                                                                         2
                 Management Oversight Improved, but Expected Benefits and
                   Capabilities for the Tax Exempt Determination System
                                Release 2 Were Not Delivered



Recommendations
We recommended the Commissioner, TE/GE Division, ensure costs, schedule delays, and
changes in system capabilities on expected benefits are tracked and reviewed against business
cases. In addition, we recommended the Director, Business Systems Planning, complete plans to
improve the tracking of actual Federal Government costs back to investments and provide this
information to the TE/GE Division Investment Executive Steering Committee for review.

Response
The Commissioner, TE/GE Division, agreed with our recommendations and provided planned
actions to address them. These actions include ensuring costs, schedule delays, and changes in
system capabilities on expected benefit are tracked against business cases and actual Federal
Government costs are tracked back to investments and provided to the TE/GE Division
Investment Executive Steering Committee for review. However, IRS management disagreed
with 1 of the 3 outcome measures described in the report ($17.0 million in inefficient use of
resources). The Commissioner, TE/GE Division, stated the lack of success in a venture such as
TEDS Release 1 does not equate to inefficiency. Instead, lessons learned from Release 1 helped
form new IRS standards in Enterprise Architecture that were used in TEDS Release 2 and will be
used in all future IRS projects.
In addition, the Commissioner, TE/GE Division, provided perspective on how the
TE/GE Division manages systems development projects and how it experienced technical and
other challenges in its work on the TEDS project. Management’s complete response to the draft
report is included as Appendix VI.

Office of Audit Comment
We acknowledge the difficulty in managing a significant information technology project such as
the TEDS project and believe the TE/GE Division’s commitment to make additional
improvements through its stated corrective actions will improve oversight of future systems
development projects. Furthermore, we agree that lessons learned did provide a benefit to the
IRS; however, we believe there was little tangible benefit for the investment in TEDS Release 1.
While we recognize the costs for TEDS Release 1 cannot be recovered at this point, increased
controls over tracking costs, delays, or other system capabilities should help the IRS better
monitor future projects and prevent implementation of new systems that are unable to
accomplish their primary purposes.
In addition, the Commissioner, TE/GE Division, stated the TEDS project management team is
working closely with the IRS Enterprise Architecture to comply with emerging standards as they
apply to the TEDS and it is premature to conclude that Release 2 will not align with future

                                                                                            3
                Management Oversight Improved, but Expected Benefits and
                  Capabilities for the Tax Exempt Determination System
                               Release 2 Were Not Delivered


Enterprise Architecture standards. We agree with the Commissioner’s conclusion and have
made applicable wording changes to the report. However, we believe completing and approving
required Enterprise Architecture documentation is a good preventive measure to ensure
compliance with the future IRS Enterprise Architecture.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                        4
                        Management Oversight Improved, but Expected Benefits and
                          Capabilities for the Tax Exempt Determination System
                                       Release 2 Were Not Delivered




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          While Some Improvements Have Been Made, Management
          Oversight Did Not Ensure Significant Expected Savings Were
          Achieved and Expected Capabilities Were Delivered ..................................Page 4
                    Recommendations 1 and 2: ..............................................Page 12


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 13
          Appendix II – Major Contributors to This Report…………… ....................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measures...............................................................Page 17
          Appendix V – Glossary of Terms .................................................................Page 20
          Appendix VI – Management’s Response to the Draft Report ......................Page 22
               Management Oversight Improved, but Expected Benefits and
                 Capabilities for the Tax Exempt Determination System
                              Release 2 Were Not Delivered




                             Abbreviations

IRS                    Internal Revenue Service
TEDS; System           Tax Exempt Determination System
TE/GE                  Tax Exempt and Government Entities
                     Management Oversight Improved, but Expected Benefits and
                       Capabilities for the Tax Exempt Determination System
                                    Release 2 Were Not Delivered




                                              Background

The Tax Exempt and Government Entities (TE/GE) Division identified a critical need to
modernize and improve its processing of Employee Plans function and Exempt Organizations
function determination letter1 applications. The Employee Plans/Exempt Organizations
Determination System in use at the time was an outdated technology that could not handle the
required workload, fulfill statutory Internal Revenue Service (IRS) responsibilities under the
Internal Revenue Code, and meet expectations of Employee Plans function and Exempt
Organizations function customers. In December 2001, the TE/GE Division Investment
Executive Steering Committee2 approved a seven-stage release strategy for the Tax Exempt
Determination System (hereafter referred to as the TEDS or System) to replace the Employee
Plans/Exempt Organizations Determination System, automate certain manual processes, and
reduce or eliminate employee labor expense.
The TEDS was needed to address several critical workload factors that threatened to overwhelm
the Employee Plans function and Exempt Organizations function Determinations Programs.
    •    Due to several law changes, the TE/GE Division anticipated receiving a significant
         increase in the number of employee plans restatement applications during
         Fiscal Years 2002 and 2003.
    •    The Determinations Programs were not effective or efficient. For example, the average
         time to work determination cases and the cycle time to respond to simple inquiries and
         status changes were too long; the level of accuracy for determinations was unacceptably
         low; expected peak volume demands could not be met; significant manual processes,
         paper handling, and tracking were inefficient; nonautomation of case grading,
         classification,3 and assignment was inefficient; and postal costs were excessive because
         of an inefficient practice of mailing case files.
The Determinations Programs are a key part of the TE/GE Division and the service provided to
its customers. Without tax-exempt status, plan sponsors may have to operate pension plans
without favorable tax treatment, and exempt organizations cannot give donors tax-deductible
receipts.


1
  See Appendix V for a glossary of terms.
2
  Executive-level members of the TE/GE Division Investment Executive Steering Committee are the Division’s
Commissioner, Deputy Commissioner, and Directors and their Executive Assistants.
3
  The case grading system capability recommends the grade level of the employee assigned to work the case
(i.e., General Service 9, 11, 12, or 13). The classification system capability shows the type of case to be worked
(i.e., Automated, Merit, Non-Merit, and Washington Office).
                                                                                                              Page 1
                    Management Oversight Improved, but Expected Benefits and
                      Capabilities for the Tax Exempt Determination System
                                   Release 2 Were Not Delivered



TEDS Release 1, deployed in March 2004, was intended to provide the initial technical
infrastructure for all future System releases, redesign the process for some Employee Plans
function customers requesting determination letters,4 reduce cycle time, and improve customer
satisfaction and determination letter quality. In September 2006, we reported5 that many of the
projected benefits were not delivered and investments associated with the development of
Release 1 were not appropriately tracked, which prevented TE/GE Division senior management
from receiving the information needed to effectively evaluate their investment in the System.
The actual cost to develop, implement, and maintain Release 1 (through February 17, 2006) was
more than $16.9 million, which was approximately $2.3 million higher than the estimate made in
the August 2003 TEDS Business Case. However, this Business Case was not appropriately
updated to reflect the severely curtailed capabilities of the System, the 16 percent increase in
cost, and the 5-month delay in delivery of the System. We recommended and TE/GE Division
management agreed to adopt a business case model that tracked and monitored the actual project
costs.
TE/GE Division Business Systems Planning function management started to develop TEDS
Release 2 in September 2003, and the Director, Exempt Organizations, became the new
executive owner in August 2005. Release 2 was to include the upfront imaging of Employee
Plans function and Exempt Organizations function determination applications, enhanced
reporting, and automated case assignment. It was originally scheduled for implementation in
March 2007. Release 2 implementation is currently scheduled for May 2008.
Project responsibilities for developing TEDS Release 2 are designated as follows:
    •    The TE/GE Division Investment Executive Steering Committee has overall
         responsibility for approving the TEDS Business Cases used to request funding for the
         new computer system, monitoring and overseeing development of the project, and
         approving project requests to exit a milestone and continue with development and
         delivery of the System. The Committee also has a responsibility to stop the project, if
         necessary, when the budget is exceeded or the success of the project is in jeopardy.
    •    TEDS project management is responsible for managing project costs, schedules, and
         performance in accordance with IRS policy. This includes responsibility for acquisition
         and delivery of products or systems; ensuring the System complies with the IRS
         Enterprise Architecture; providing status information and recommendations to the
         TE/GE Division Investment Executive Steering Committee; and managing changes to
         costs, schedules, and requirements of the project.




4
 Application for Determination for Adopters of Master or Prototype or Volume Submitter Plans (Form 5307).
5
 The Tax Exempt Determination System Release 1 Delivered Only a Small Portion of the Expected Benefits and
Significantly Exceeded Cost Estimates (Reference Number 2006-10-174, dated September 26, 2006).
                                                                                                      Page 2
                  Management Oversight Improved, but Expected Benefits and
                    Capabilities for the Tax Exempt Determination System
                                 Release 2 Were Not Delivered



This review was performed at the TE/GE Division National Headquarters Business Systems
Planning function and Exempt Organizations function offices in Washington, D.C., during the
period January through July 2007. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.
Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                    Management Oversight Improved, but Expected Benefits and
                      Capabilities for the Tax Exempt Determination System
                                   Release 2 Were Not Delivered




                                     Results of Review

While Some Improvements Have Been Made, Management Oversight
Did Not Ensure Significant Expected Savings Were Achieved and
Expected Capabilities Were Delivered
The TE/GE Division Investment Executive Steering Committee improved its oversight of the
development of TEDS Release 2 from that provided during Release 1 by using certain project
management techniques. In addition, TE/GE Division management began tracking some project
costs as we had recommended.6 However, management did not fully implement our
recommendations to evaluate investment decisions and monitor whether business benefits would
be realized. As a result, when TEDS Release 2 is completed, its cost may far outweigh its
benefits. The high cost of the System compared to the benefits it will deliver brings into
question whether sound investment decisions were made during the System’s development and
whether this was the best use of Federal Government funds. We identified the following:
    •    Less than one-half of the originally envisioned monetary benefits of Release 2 will be
         delivered, and the cost of the Release may now exceed the benefits. At the end of our
         audit work, TE/GE Division management provided some explanations for the change in
         value of individual benefits listed in the February 2007 Business Case7 and the impact
         schedule delays and deletion of some system capabilities had on overall project benefits.
    •    The IRS exceeded by $2.1 million (26 percent) the estimated contractor cost and did not
         track the estimated $5.1 million in internal labor costs in the August 2004 Business Case.
         As a result, we could not verify the reliability of $7.2 million in the Business Case.8
    •    TE/GE Division management did not ensure required Enterprise Architecture
         documentation was completed as required. Therefore, there is no assurance that the
         System was designed and built to work with other IRS computer systems to improve
         performance and productivity without the need to make additional future changes.
    •    We previously reported that significant benefits from Release 1 were not realized
         (i.e., reduced cycle times, improved customer satisfaction, and improved customer
         service). However, in our previous report, we did not comment on another significant
         benefit envisioned for Release 1: providing the initial technical infrastructure (hardware

6
  The Tax Exempt Determination System Release 1 Delivered Only a Small Portion of the Expected Benefits and
Significantly Exceeded Cost Estimates (Reference Number 2006-10-174, dated September 26, 2006).
7
  See Appendix IV for further details.
8
  See Appendix IV for further details.
                                                                                                       Page 4
                    Management Oversight Improved, but Expected Benefits and
                      Capabilities for the Tax Exempt Determination System
                                   Release 2 Were Not Delivered



         and software) for future releases. We determined this benefit was not realized because
         computer hardware, software, and custom code were completely replaced for Release 2.
         As a result, an inefficient use of resources occurred when little benefit was realized from
         the $17 million spent on Release 1.9

Certain project management techniques were generally planned for and applied
during development of the TEDS Release 2
The TE/GE Division Investment Executive Steering Committee improved its oversight of the
development of Release 2 by using certain project management techniques. In previous reports
concerning the development of Release 1,10 we reported that project management techniques
were not effectively used.
TE/GE Division management adopted the Enterprise Life Cycle-Lite as a process to plan and
manage the development of Release 2. The Enterprise Life Cycle-Lite is a disciplined system
development methodology that uses reviews, checkpoints, and milestones to ensure projects are
efficiently and effectively planned, designed, developed, and implemented. TE/GE Division
management planned for and generally implemented Enterprise Life Cycle-Lite techniques.
Those techniques and management’s activities included:
     •   Risk management – Processes were developed to identify, quantify, respond to, and
         control potential problems that could severely affect Release 2 development goals. We
         reviewed risk reports that identified the critical status of potential problems, as well as
         the actions identified to reduce the risk that the most likely problems could occur.
     •   Configuration management – Processes were developed to identify, control, and
         approve changes to system documentation, computer source code, and off-the-shelf
         software.
     •   Requirements management – Processes were developed to gather and document
         requirements, track the design and programming to the requirements, and manage any
         changes.
     •   Transition management – Processes were developed to transition from the old
         Employee Plans/Exempt Organizations Determination System to the new
         TEDS Release 2. The processes included identifying the gaps between current and
         future processes for organizational alignment, staffing, training, processing, assets
         needed to close the gaps, documentation, and communication.


9
 See Appendix IV for further details.
10
  Project Management Techniques Need to Be Followed to Effectively Develop the Tax Exempt Determination
System (Reference Number 2003-10-103, dated May 2003) and The Tax Exempt Determination System Release 1
Delivered Only a Small Portion of the Expected Benefits and Significantly Exceeded Cost Estimates (Reference
Number 2006-10-174, dated September 26, 2006).
                                                                                                       Page 5
                  Management Oversight Improved, but Expected Benefits and
                    Capabilities for the Tax Exempt Determination System
                                 Release 2 Were Not Delivered



While TE/GE Division management improved their use of certain project management
techniques, they did not fully evaluate their investment decisions and did not ensure alignment
with the Enterprise Architecture. If prior Treasury Inspector General for Tax Administration
recommendations had been implemented, the cost overruns and decrease in planned benefits may
have been avoided or further minimized.

The cost of TEDS Release 2 may exceed the reduced monetary benefits delivered
TEDS Release 2 may be completed with significantly reduced system capabilities and benefits.
The June 2004 TEDS Release 2 Business Case documented 16 high-level system capabilities
costing $46 million that would deliver benefits of $58 million. This Business Case was updated
in August 2004 to document estimated benefits of $73.1 million. However, after work began on
Release 2, the TE/GE Division project team incurred delays in delivering benefits (e.g., 4 system
capabilities were deleted, some system capabilities have been only partially delivered, and
5 system capabilities have been delayed by up to 2 years). An additional 8 capabilities were
added, but the February 2007 TEDS Release 2 Business Case documents the System is now
expected to deliver only $33.5 million (less than one-half) of the $73.1 million August 2004
expected benefits.
TE/GE Division management advised us the August 2004 TEDS Release 2 Business Case
benefits were recalculated in February 2007 to correct:
   •    Benefit projections that used double inflation for labor.
   •    Benefit projections for changes in scope, schedule, and other financial factors.
   •    Cyber Assistant application benefit projections.
In addition, according to TE/GE Division management, part of the large decrease in benefits was
due to the elimination of certain TEDS features because functions that were intended to be
performed by another system could not be accomplished as planned. Figure 1 shows a
comparison of the cost and benefits calculations for the TEDS Release 2 Business Cases dated
June 2004, August 2004, and February 2007.




                                                                                           Page 6
                         Management Oversight Improved, but Expected Benefits and
                           Capabilities for the Tax Exempt Determination System
                                        Release 2 Were Not Delivered



     Figure 1: Comparison of TEDS Business Case Changes in Costs and Benefits
                 (in millions) Between June 2004 and February 2007

                           $80.0

                           $70.0

                           $60.0

                           $50.0
               Dollars




                           $40.0

                           $30.0

                           $20.0

                           $10.0

                            $0.0
                                     June 2004              August 2004             February 2007
                         Costs         $46.3                    $46.3                    $46.8
                         Benefits      $58.2                    $73.1                    $33.5
                                                           Business Case

           Source: Analysis of the June 2004, August 2004, and February 2007 Release 2 Business
           Cases.

The February 2007 Business Case shows a significant decrease in benefits from both the
June 2004 and August 2004 Business Cases. TE/GE Division management also advised us that
updates to the benefits calculations after February 2007 will now put the benefits at over
$35 million.
The Clinger-Cohen Act of 199611 requires Federal Government agencies to use a disciplined
capital and investment control process to manage information technology investments. Agencies
are required to put their technology investment decisions in a true “business context” and analyze
investments for their return on investment. Annually, the Office of Management and Budget
publishes Circular A-11, Preparation, Submission and Execution of the Budget, to assist Federal
Government agencies in complying with the Clinger-Cohen Act of 1996. Circular A-11 provides
guidance on the preparation of business cases for information technology systems.



11
  Federal Acquisition Reform Act of 1996 and Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                             Page 7
                     Management Oversight Improved, but Expected Benefits and
                       Capabilities for the Tax Exempt Determination System
                                    Release 2 Were Not Delivered



In addition, according to organizational policy, the IRS requires tracking, monitoring, and
evaluating of all project costs12 and expected benefits against the approved business case.
Business cases provide decision makers with benchmark information necessary to make
evaluations on a project’s costs and benefits and a basis for measuring whether multimillion
dollar investments make good business sense.
We performed additional reviews of documentation to determine whether TEDS project
management and the TE/GE Division Investment Executive Steering Committee tracked,
monitored, and evaluated project costs as required. We determined the following:
     •   Project management did not have information that associated the value of expected
         benefits to specific system capabilities. For example, the updated expected benefits in
         the February 2007 Business Case show Release 2 is now expected to deliver benefits of
         only $33.5 million, a decrease of $39.6 million from the August 2004 Business Case
         projection. Through our review of documentation and discussions with project
         management, we could not identify the relationship between the system capabilities and
         the benefits that make up the $39.6 million that have been deleted. However, at the end
         of our audit work, TE/GE Division management provided some information related to
         the changes in benefits. Information that relates the value of benefits to any changes in
         system capabilities is critical for evaluating whether a system should receive continued
         funding and development.
     •   Because project management did not have this information for Release 2, the Investment
         Executive Steering Committee did not receive the critical periodic updates of cost and
         benefit information needed to assess the impact that delayed or undelivered system
         capabilities had on expected benefits.
     •   Review of the Investment Executive Steering Committee’s monthly meeting notes
         identified the Committee addressed issues that concerned specific system capabilities or
         funding for specific contracts. However, we did not find any documented discussion of
         the collective impact of schedule delays and the deletion of system capabilities on
         overall project benefits and actual project costs. When we discussed this with
         Committee members, they advised us that schedule delays and benefits were regularly
         discussed at meetings. However, we were not provided documentation showing these
         topics were discussed. The Commissioner, TE/GE Division (a key member of the
         Investment Executive Steering Committee), also advised us that, while he may not have
         known the exact dollar figure by which benefits were decreasing, he and the Committee
         members always knew what capabilities the IRS would be receiving and what
         capabilities the IRS would be losing when making decisions. He stated the
         decision-making process may not have involved looking back at the August 2004

12
  Project costs include, but are not limited to, contract and Federal Government personnel direct and indirect labor
costs that support the investment.
                                                                                                             Page 8
                     Management Oversight Improved, but Expected Benefits and
                       Capabilities for the Tax Exempt Determination System
                                    Release 2 Were Not Delivered



         Business Case. In addition, despite not knowing the exact amount by which benefits
         were declining, TE/GE Division management may not have considered other alternatives
         because the system the TEDS is replacing, the Employee Plans/Exempt Organizations
         Determination System, is a failing and dying system.
IRS policy provides that business cases may be updated any time during system development,13
at the discretion of the Investment Executive Steering Committee. Conditions that may trigger a
revision to the business case include changing the scope of the project, increasing the cost of the
project by more than 10 percent, or extending the targeted delivery dates by more than
10 percent of the estimate. Adverse changes in cost, schedule, and performance do not, by
themselves, automatically require a business case revision. However, if changes in cost,
schedule, or performance result in modified baseline information and/or increases greater than
10 percent, a revision to the business case and approval from the Investment Executive Steering
Committee may be needed to proceed with development. The revisions are necessary to ensure
the most accurate information is available for making investment decisions, monitoring the
progress of the system’s development, and evaluating whether business benefits are actually
realized.
The TEDS Business Case was last updated in February 2007. However, due to the change in the
project’s scope and the reduction in benefits of approximately 54 percent, we believe the
Business Case should have been updated sooner. We could not determine the reason for the
February 2007 update because actual costs compared to estimated costs and the changes in
capabilities and benefits were not tracked. In addition to the significant reduction in benefits,
there was at least an 8-month delay in the Release 2 implementation. For the TEDS, the
TE/GE Division Investment Executive Steering Committee had a responsibility to determine
whether the Business Case needed to be revised or updated. Knowing that the benefits decreased
significantly, but not requesting a revision to the Business Case prevented the Committee from
having full knowledge of the significant decrease in the benefits that the TEDS would deliver
compared to the original estimates in the approved Business Case. Significant deviations from
the Business Case, such as cost overruns or decreased capabilities or benefits, should be
discussed as soon as they are identified.

A process to track and monitor total project cost was not implemented, and
overruns occurred
Total project costs were not monitored and reported because TE/GE Division management did
not have a process in place to appropriately evaluate investment decisions associated with the
development of TEDS Release 2. None of the actual project costs to develop, implement, and
evaluate Release 2 were tracked and monitored as required by IRS procedures. As a result,


13
  IRS policy generally requires a business case to be updated after successful completion of integration, testing,
acceptance, and piloting (testing the system in an actual business environment).
                                                                                                              Page 9
                    Management Oversight Improved, but Expected Benefits and
                      Capabilities for the Tax Exempt Determination System
                                   Release 2 Were Not Delivered



project management was not aware that actual contractor costs significantly exceeded the
estimate in the August 2004 Business Case.
We reviewed the Project Manager’s records and calculated that contractor costs exceeded the
estimate by at least $2.1 million (an increase from $8.1 million to $10.2 million, or 26 percent)
for Fiscal Years 2004 through 2006. In addition, IRS internal labor costs estimated at
$5.1 million were not tracked. This information should have been provided to the
TE/GE Division Investment Executive Steering Committee so it would be aware of significant
deviations from the project’s estimated costs and could determine whether the expected return on
investment was being achieved. As a result, the Committee could not evaluate performance and
determine if the project was being delivered within estimated costs.
TE/GE Division management implemented procedures in response to a recommendation14 we
made as part of our review of the TEDS Release 1. We recommended adopting a business case
model to include processes for tracking and monitoring actual project costs. TE/GE Division
management implemented procedures to verify actual contractor costs weekly to ensure the
expenses were actually incurred. However, the procedures did not include tracking, comparing,
monitoring, and evaluating contractor costs and IRS internal labor costs to estimates in the
approved TEDS Business Case.
In addition, the Project Manager advised us the current IRS timekeeping system does not
adequately support tracking internal labor costs. Release 2 project management advised us
Federal Government labor cost is tracked back to the project as actual cost as accurately as
possible, considering the limitations of the timekeeping system. This has been a longstanding
weakness in other areas of the IRS, such as in the Modernization and Information Technology
Services organization that recently corrected the problem.15
We determined there was $7.2 million of potentially unreliable information in the
TEDS August 2004 Business Case for Fiscal Years 2004 through 2006. This includes
$2.1 million paid to contractors that exceeded the estimated amount in the Business Case and
$5.1 million in estimated IRS internal labor cost not tracked.16
Management Action: Project management informed us the TE/GE Division Business Systems
Planning function has been working to improve the tracking of actual Federal Government costs
back to investments; however, additional process changes need to be made to facilitate reporting.




14
   The Tax Exempt Determination System Release 1 Delivered Only a Small Portion of the Expected Benefits and
Significantly Exceeded Cost Estimates (Reference Number 2006-10-174, dated September 26, 2006).
15
   The Modernization and Information Technology Services Organization Can Improve Its Budget Formulation,
Execution, and Review Processes (Reference Number 2007-20-064, dated May 9, 2007).
16
   See Appendix IV for further details.
                                                                                                      Page 10
                        Management Oversight Improved, but Expected Benefits and
                          Capabilities for the Tax Exempt Determination System
                                       Release 2 Were Not Delivered



Minimal benefits were realized from TEDS Release 1

The TE/GE Division received very few benefits from the development of Release 1.
Approximately $17 million was spent to purchase the technical infrastructure, including
computer hardware and the development of computer code. Upon completion, Release 1 was
expected to reduce cycle time, processing time, and processing costs, while implementing
process improvements to enhance the quality of determinations and the quality of service
delivered to TE/GE Division customers. The technical infrastructure, including computer
hardware and software, was designed to support Release 1 and all future TEDS releases.
However, according to TE/GE Division management, the initial infrastructure had to be replaced
when it was completed because it did not meet new IRS standards. As a result, an inefficient use
of resources occurred and the TE/GE Division realized little benefit from its $17 million
investment for Release 1.17

Management oversight may not ensure TEDS Release 2 will align with the future
IRS Enterprise Architecture
Project management oversight may not ensure Release 2 will align with the future Enterprise
Architecture. Oversight is necessary to ensure additional costs are not incurred in the future to
bring the applications into alignment with the Enterprise Architecture. We identified the
following two documents were not completed or approved as required.
       •    The Release 2 Enterprise Architecture Assessment was not completed. This omission is
            significant because the purpose of the Assessment is to determine whether the project is
            consistent with the Enterprise Architecture to ensure computer systems designed and
            built separately will improve performance and productivity.
       •    The Enterprise Architecture Charter for Release 2 was incomplete and had not been
            approved. This Charter is used to manage the scope of the project in a manner that is
            consistent with the IRS Enterprise Architecture.
The development, modernization, and enhancement of projects, such as TEDS Release 2, must
show compliance with the IRS Enterprise Architecture. Enterprise Architecture Directive 15,
Project Chartering and Conformance with the IRS Enterprise Architecture, applies to all projects
that are part of the future Architecture. Projects such as TEDS Release 2 require chartering and
verification of conformance to the Enterprise Architecture.
Anticipated benefits of Release 2, such as streamlined work processes and improved service
delivery and efficiency, may not be realized if management does not ensure Release 2 is in
alignment with the approved Enterprise Architecture. Likewise, incomplete and unapproved


17
     See Appendix IV for further details.
                                                                                             Page 11
                  Management Oversight Improved, but Expected Benefits and
                    Capabilities for the Tax Exempt Determination System
                                 Release 2 Were Not Delivered



project documentation increases the risk that Release 2 will not be successfully integrated into
the Enterprise Architecture.

Recommendations
Recommendation 1: The Commissioner, TE/GE Division, should implement controls to
ensure costs and the impact of schedule delays and changes in system capabilities on expected
benefits are tracked. The TE/GE Division Investment Executive Steering Committee should
review these impacts against business cases and ensure business cases are timely updated.
       Management's Response: IRS management agreed with the recommendation. The
       TE/GE Division Business Systems Planning function governance and control office will
       implement controls to ensure costs and the impact of schedule delays and changes in
       system capabilities on expected benefits are tracked. The TE/GE Division Investment
       Executive Steering Committee will review these impacts against business cases and
       ensure business cases are timely updated. However, IRS management disagreed with our
       $17 million inefficient use of resources outcome measure representing the funds spent to
       purchase the technical infrastructure, including computer hardware and the development
       of computer code. The Office of Audit Comment in Appendix IV (page 19) describes in
       more detail management’s response and our position with respect to this outcome
       measure.
Recommendation 2: The Director, Business Systems Planning, should complete plans to
improve the tracking of actual Federal Government costs back to investments and ensure this
information is provided periodically to the TE/GE Division Investment Executive Steering
Committee so it has complete information for evaluating system development projects.
       Management's Response: IRS management agreed with the recommendation. The
       Director, Business Systems Planning, will complete plans for improving the tracking of
       actual Federal Government costs back to investments and ensure this information is
       provided periodically to the TE/GE Division Investment Executive Steering Committee.




                                                                                           Page 12
                     Management Oversight Improved, but Expected Benefits and
                       Capabilities for the Tax Exempt Determination System
                                    Release 2 Were Not Delivered



                                                                                                   Appendix I

         Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the TE/GE Division developed
TEDS Release 2 using sound system development practices and whether it managed the Release 2
investment in compliance with Office of Management and Budget and Clinger-Cohen Act of
19961 requirements. To accomplish these objectives, we:
I.       Determined if TE/GE Division management applied and adhered to the approved
         Enterprise Life Cycle-Lite2 methodology for development of TEDS Release 2.
         Specifically, we determined if:
         A. TE/GE Division management’s development approach was adequate to monitor and
            control the Release 2 activities from project startup through closure.
         B. The risk management process was adequate to identify, quantify, respond to, and
            control the risks that could prevent successful completion of the project.
         C. The configuration management process was adequate to identify, document, monitor,
            evaluate, and approve all changes to system requirements.
         D. The requirements management process adequately identified the Release 2 user
            requirements.
         E. The transition management process was adequate to ensure Release 2 is ready for
            deployment and transfer to the Modernization and Information Technology Services
            organization.
II.      Determined if TE/GE Division management ensured alignment with the IRS Enterprise
         Architecture. Specifically, we determined if:
         A. The Release 2 project team adhered to Enterprise Architecture requirements.
         B. Project documents identified how Release 2 fits into the IRS architecture of the
            future.
         C. The project team had coordinated its development efforts and resolved any
            differences with the Tier II Project Office.

1
  Federal Acquisition Reform Act of 1996 and Information Technology Management Reform Act of 1996,
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
2
  See Appendix V for a glossary of terms.
                                                                                                            Page 13
                 Management Oversight Improved, but Expected Benefits and
                   Capabilities for the Tax Exempt Determination System
                                Release 2 Were Not Delivered



III.   Determined if TE/GE Division management’s investment decisions followed estimates in
       the TEDS Business Cases.
       A. Compared the expected and actual Release 2 capabilities and determined if Release 2
          was developed as intended to deliver the expected benefits.
       B. Reviewed project management records and determined if actual expenditures were
          compared to estimates in the August 2004 Business Case.
       C. Followed up on the development of Release 1 and determined whether benefits
          outlined in the August 2003 Release 1 Business Case were delivered.

Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: Office of Management and Budget
policies, Clinger-Cohen Act of 1996 requirements, Enterprise Life Cycle-Lite requirements, and
IRS investment management requirements. We reviewed these controls by interviewing
Business Systems Planning function and Exempt Organizations function management, analyzing
Investment Executive Steering Committee minutes, and reviewing various project plans.




                                                                                      Page 14
                Management Oversight Improved, but Expected Benefits and
                  Capabilities for the Tax Exempt Determination System
                               Release 2 Were Not Delivered



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Troy D. Paterson, Director
Gerald T. Hawkins, Acting Director
Julia M. Collins, Acting Audit Manager
John W. Baxter, Lead Auditor
Andrew J. Burns, Lead Auditor
Deadra M. English, Senior Auditor
Yasmin B. Ryan, Senior Auditor
Michael A. McGovern, Auditor




                                                                                    Page 15
                Management Oversight Improved, but Expected Benefits and
                  Capabilities for the Tax Exempt Determination System
                               Release 2 Were Not Delivered



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Business Systems Planning, Tax Exempt and Government Entities Division SE:T:BSP
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 16
                  Management Oversight Improved, but Expected Benefits and
                    Capabilities for the Tax Exempt Determination System
                                 Release 2 Were Not Delivered



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; $39.6 million (see page 4).

Methodology Used to Measure the Reported Benefit:
IRS project management did not have information that associated the value of expected benefits
to specific system capabilities. For example, the updated expected benefits in the February 2007
TEDS Business Case show Release 2 is now expected to deliver benefits of only $33.5 million, a
decrease of $39.6 million from the original projection in the August 2004 TEDS Business Case.
Information that relates the value of benefits to the system capabilities is needed to assess the
impact that delayed or undelivered system capabilities had on the expected benefits of Release 2.
Because this information was not available, project management could not assess the impact the
decrease in expected benefits had on the Release 2 investment.
Benefits expected from Release 2 listed in the
August 2004 Business Case                                                  $73.1 million
Less: Benefits expected from Release 2 listed in the
February 2007 Business Case                                                $33.5 million
Total                                                                      $39.6 million

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; $7.2 million (see page 4).

Methodology Used to Measure the Reported Benefit:
We determined contractor costs were being tracked; however, the IRS did not compare actual
contractor costs to the estimated contractor costs listed in the August 2004 Business Case. We
made this comparison and determined contractor costs had exceeded estimates by $2.1 million
through Fiscal Year 2006. We also determined TE/GE Division management was not tracking
internal labor costs; therefore, we could not determine whether the $5.1 million estimated for


                                                                                           Page 17
                  Management Oversight Improved, but Expected Benefits and
                    Capabilities for the Tax Exempt Determination System
                                 Release 2 Were Not Delivered



IRS internal labor in the August 2004 Business Case was reliable. We added these amounts to
determine the amount of potential unreliable information in the Business Case.
Amount contractor costs exceeded estimates in the
August 2004 Business Case through Fiscal Year 2006                                  $2.1 million
Add: Estimated IRS internal labor costs in the
August 2004 Business Case that were not tracked                                     $5.1 million
Total of potentially unreliable cost information in the Business Case               $7.2 million
The estimated IRS internal labor costs in the TEDS Business Case were taken directly from the
August 2004 Business Case. The amount of contractor costs that exceeded estimates in the
TEDS Business Case through Fiscal Year 2006 were calculated by subtracting the estimated
contractor cost to implement Release 2 through Fiscal Year 2006 from the actual contractor cost
to implement Release 2 through Fiscal Year 2006.
Actual contractor cost to implement Release 2 through Fiscal Year 2006              $10.2 million
Less: Estimated contractor cost to implement Release 2 through
Fiscal Year 2006                                                                     $8.1 million
Total by which contractor costs exceeded estimates in the
August 2004 Business Case through Fiscal Year 2006                                   $2.1 million
We calculated the actual contractor cost to implement Release 2 through Fiscal Year 2006 by
adding contractor invoice information collected by IRS project management. We calculated the
estimated contract cost to implement Release 2 through Fiscal Year 2006 by subtracting the
estimated TE/GE Division and IRS labor cost of $5.1 million listed in the August 2004 Business
Case from the $13.2 million total cost to implement Release 2 listed in that Business Case.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Actual; $17.0 million (see page 4).

Methodology Used to Measure the Reported Benefit:
TEDS Release 1 did not significantly improve the processing of Employee Plans function
determination applications, and the technical infrastructure designed to support future releases of
the System was replaced. As a result, the TE/GE Division realized little benefit from its
$17 million investment.
We determined the total Release 1 costs by adding prior project costs listed in the
August 2003 TEDS Business Case to IRS internal labor costs and contractor costs to complete
Release 1.


                                                                                           Page 18
                  Management Oversight Improved, but Expected Benefits and
                    Capabilities for the Tax Exempt Determination System
                                 Release 2 Were Not Delivered



Prior project costs listed in the August 2003 Business Case                 $12.0 million
Add: TE/GE Division internal labor costs from August 7, 2003, through
February 17, 2006                                                             $.5 million
Add: Contractor costs from August 7, 2003, through February 17, 2006         $4.5 million
Total                                                                       $17.0 million
The TE/GE Division labor costs to complete Release 1 were obtained from IRS project
management. The contractor costs from August 7, 2003, through February 17, 2006, were
calculated by adding contractor invoice information collected by IRS project management.

Office of Audit Comment
IRS management disagreed with 1 of the 3 outcome measures described in the report
($17.0 million in inefficient use of resources). The Commissioner, TE/GE Division, stated the
lack of success in a venture such as TEDS Release 1 does not equate to inefficiency. Instead,
lessons learned from Release 1 helped form new IRS standards in Enterprise Architecture that
were used in TEDS Release 2 and will be used in all future IRS projects.
We agree that lessons learned did provide a benefit to the IRS; however, we believe there was
little tangible benefit for the investment in TEDS Release 1. Furthermore, while we recognize
the costs for TEDS Release 1 cannot be recovered at this point, increased controls over tracking
costs, delays, or other system capabilities should help the IRS better monitor future projects and
prevent implementation of new systems that are unable to accomplish their primary purposes.
In addition, the Commissioner, TE/GE Division, stated the TEDS project management team is
working closely with the IRS Enterprise Architecture to comply with emerging standards as they
apply to the TEDS and it is premature to conclude that Release 2 will not align with future
Enterprise Architecture standards. We agree with the Commissioner’s conclusion and have
made applicable wording changes to the report. However, we believe completing and approving
required Enterprise Architecture documentation is a good preventive measure to ensure
compliance with the future IRS Enterprise Architecture.




                                                                                            Page 19
                  Management Oversight Improved, but Expected Benefits and
                    Capabilities for the Tax Exempt Determination System
                                 Release 2 Were Not Delivered



                                                                          Appendix V

                             Glossary of Terms

Term                                  Definition
Business Case                         Addresses how an investment project will provide
                                      the IRS with new business capabilities, increased
                                      productivity, and improved management decision-
                                      making tools. It provides a basis for making
                                      investment decisions and establishes a project’s
                                      baseline cost, schedule, and performance to
                                      control and evaluate the investment.
Cyber Assistant                       An application that is an interactive tool for
                                      exempt organizations that will provide real-time
                                      education and guidance to assist in ensuring
                                      compliance with the tax law, reducing customer
                                      burden, and increasing the merit closure rates for
                                      Application for Recognition of Exemption Under
                                      Section 501 (c)(3) of the Internal Revenue Code
                                      (Form 1023).
Cycle Time                            The period from when a determination request is
                                      postmarked to the closing of the application and
                                      issuance of the determination letter.
Determination Letters                 Provide customers assurance their employee plan
                                      or exempt organization is in compliance with
                                      applicable tax laws.
Enterprise Architecture               The IRS Enterprise Architecture and its principles
                                      (1) provide the basis for defining architectural
                                      strategies and making implementation choices and
                                      (2) help business owners and program developers
                                      ensure proposed systems and other initiatives are
                                      approved, resourced, and integrated into overall
                                      IRS computer systems and processes.
Enterprise Life Cycle-Lite            A disciplined system development methodology.



                                                                                  Page 20
               Management Oversight Improved, but Expected Benefits and
                 Capabilities for the Tax Exempt Determination System
                              Release 2 Were Not Delivered



Term                               Definition
Milestone                          A milestone represents the completion of key
                                   activities within the project’s life cycle and is used
                                   to measure progress and provide a review point for
                                   executive or oversight approval. Projects must
                                   receive formal approval to proceed from one
                                   milestone to the next.
Requirements                       Generally, requirements reflect the needs of a user
                                   to solve a problem or achieve an objective.
Restatement                        An application made to the IRS for an advance
                                   determination to ensure an amendment to an
                                   employee benefit plan meets the qualification
                                   requirements according to the Internal Revenue
                                   Code.
Return on Investment               The net profit or loss in an accounting period
                                   divided by the capital investment used during the
                                   period, usually expressed as an annual percentage
                                   return.
Risk                               A potential event that, if it occurs, will adversely
                                   affect the project’s cost, schedule, and/or technical
                                   performance.
Tier II                            Tier II refers to a tiered level of information
                                   technology equipment (i.e., Tier I – Mainframes,
                                   Tier II – Servers, and Tier III – Desktops and
                                   Laptops).




                                                                                 Page 21
    Management Oversight Improved, but Expected Benefits and
      Capabilities for the Tax Exempt Determination System
                   Release 2 Were Not Delivered



                                                  Appendix VI

Management’s Response to the Draft Report




                                                        Page 22
Management Oversight Improved, but Expected Benefits and
  Capabilities for the Tax Exempt Determination System
               Release 2 Were Not Delivered




                                                    Page 23
Management Oversight Improved, but Expected Benefits and
  Capabilities for the Tax Exempt Determination System
               Release 2 Were Not Delivered




                                                    Page 24
Management Oversight Improved, but Expected Benefits and
  Capabilities for the Tax Exempt Determination System
               Release 2 Were Not Delivered




                                                    Page 25
Management Oversight Improved, but Expected Benefits and
  Capabilities for the Tax Exempt Determination System
               Release 2 Were Not Delivered




                                                    Page 26
